No. _ _ __

IN THE SUPREME COURT OF THE UNITED STATES
BLAINE MILAM,

Petitioner,
V.

STATE OF TEXAS,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF CRIMINAL APPEALS OF TEXAS

PROOF OF SERVICE
On November 23, 2020, I contacted Tomee Heining, counsel of record for
respondent in this case who agreed to receive electronic service of this filing. I certify
that on November 27, 2020, I served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
and associated appendices via email to Tomee Heining, Assistant Attorney
General/Assistant County Attorney, Post Office Box 12548, Capitol Station, Austin,
Texas 78711, tomee.heining@oag.texas.gov. I am a member of the Bar of this Court.
Respectfully submitted,

~ - u -l_a _ __
Texas Defender Service
1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org

